APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(May 21, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Northern District of
Texas, Lubbock Division
(July 2, 2018) . . . . . . . . . . . . . . . App. 16
Appendix C Complaint in the United States
District Court for the Northern
District of Texas, Lubbock Division
(October 25, 2017) . . . . . . . . . . . . App. 37
Appendix D U.S. Const. amend. IV . . . . . . . . App. 47
42 U.S.C.A. § 1983 . . . . . . . . . . . App. 47

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-11023
[Filed May 21, 2019]
_____________________________________________
PAUL ANTHONY VALDERAS,
)
Plaintiff - Appellant
)
)
v.
)
)
CITY OF LUBBOCK, a political
)
subdivision; BILLY MITCHELL, individually )
and his official capacity,
)
Defendants - Appellees
)
____________________________________________ )
Appeals from the United States District Court
for the Northern District of Texas
USDC No. 5:17-CV-245
Before JOLLY, COSTA, and ENGELHARDT, Circuit
Judges.
PER CURIAM:*

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 2
Paul Valderas appeals the district court’s grant of
summary judgment in favor of Officer Billy Mitchell
dismissing Valderas’s 42 U.S.C. § 1983 excessive force
claim. Valderas contends that there were genuine
issues of material fact regarding whether Officer
Mitchell was reasonable in using deadly force. Valderas
further contends that the district court abused its
discretion by accepting Mitchell’s motion to strike a
significant portion of Valderas’s summary judgment
evidence. We conclude that Valderas has failed to
present a genuine issue of material fact regarding his
excessive force claim. We further conclude that the
district court did not abuse its discretion in granting
Officer Mitchell’s motion to strike certain evidence and
statements offered by Valderas in summary judgment
proceedings. Consequently, we AFFIRM the judgment
of the district court.
I.
This case arises out of the events surrounding the
arrest of Paul Valderas on the night of January 26,
2017, pursuant to a felony arrest warrant issued for
Valderas’s violation of parole. It is undisputed that
during the arrest, Valderas was shot three times (out
of the five successive shots fired) by Officer Billy
Mitchell, resulting in Valderas’s partial paralysis.1
Leading up to this event, a Confidential Informant
(CI) working with the Lubbock Police Department
allegedly contacted Valderas about purchasing drugs
1

A security camera from a neighboring residence capturing the
encounter was produced as video evidence and is relied upon by
both parties on appeal.

App. 3
and agreed to meet Valderas at a residence. Later that
night Valderas exited the residence to meet with the
occupants of a car that had parked in front of the
residence. The CI sat in the passenger seat.2 Valderas
was talking to the CI through the passenger window of
the parked car when he saw a vehicle approaching at a
high rate of speed with its bright lights on.
The vehicle in question transported an arrest team
including Officer Mitchell, Sergeant Don Billingsley,
and Investigator Daniel Merritt. They were planning to
take Valderas into custody pursuant to an outstanding
felony warrant for his arrest. The arrest team was
notified that Valderas was considered armed and
dangerous. The officers were also briefed that Valderas
had recently evaded police in a motor vehicle, and that
he had a violent and lengthy criminal history. The plan
was to apprehend Valderas as he exited the residence.3
Valderas claims that he feared he would be
ambushed and robbed, so he took the gun in his hand
from his waistband as the car approached. All three
officers testified that they saw Valderas pull a gun
from his waistband. According to Valderas, as he was
pulling his gun from his waistband, the CI told him

2

In his deposition, Valderas also mentions an unidentified person
in the backseat, passenger’s side, wearing a hoodie.
3

The Lubbock Police Department had been conducting
surveillance of Valderas in connection with an ongoing narcotics
investigation. A SWAT team was on standby if necessary to assist
in the arrest.

App. 4
that it was the police, so he threw the gun into the car.4
Investigator Merritt yelled, “Gun!” Nearly
simultaneously, Officer Mitchell exited the car, drew
his weapon, and yelled, “Police!”5 Officer Mitchell fired
five shots at Valderas, striking him three times.
The entire incident, from the time that the police
vehicle began approaching until Valderas was shot, did
not last more than ten seconds. Officer Mitchell
testified that he did not see Valderas discard the
weapon before opening fire. The two other officers
testified to the same. Investigator Merritt testified,
however, that he later found the gun inside the car.
II.
Valderas filed this civil complaint against Officer
Mitchell, officially and individually, and the City of
Lubbock, alleging excessive force in violation of 42
U.S.C. § 1983.6 Officer Mitchell moved for summary
judgment on grounds of qualified immunity as to the
claim against him in his individual capacity, asserting
that his use of force was objectively reasonable because
he reasonably believed that Valderas possessed a gun
and was a threat to everyone present, including the two
innocent bystanders in the car next to Valderas.
4

Valderas also claims that he put his hands up and started
running away. This testimony is flatly contradicted by the video
evidence.
5

All three officers on the arrest team were wearing their
department issued tactical vests with “POLICE” in bold, white
reflective letters.
6

The City of Lubbock did not file a brief in this appeal.

App. 5
Also apropos to this appeal, Officer Mitchell filed a
motion before the district court, titled “Motion for
Leave to File Reply Brief, Objections and Motion to
Strike and Exclude Inadmissible Portions of Plaintiff’s
Summary Judgment Evidence and Unsupported
Assertions.” In his motion, Officer Mitchell
(1) requested leave to file his reply brief; (2) objected to
eleven of Valderas’s exhibits filed in response to the
motion for summary judgment as inadmissible and not
competent summary judgment evidence; (3) objected to
certain assertions by Valderas as unsupported; and
(4) moved to strike based on each of these objections. In
response, Valderas opposed the motion, arguing that
the motion was not filed in compliance with Northern
District of Texas Local Rule 7.1; that is, that Officer
Mitchell’s counsel allegedly failed to properly
conference with Valderas’s counsel prior to filing the
motion—contrary to the recited certification of
conference.
The district court granted Officer Mitchell’s motion
to strike, noting that Valderas failed to contest the
arguments raised in the motion to strike, and it found,
without further explanation, that each objection
Mitchell raised was meritorious. In the same ruling,
the district court concluded that Officer Mitchell was
entitled to qualified immunity and granted his motion
for summary judgment. Accordingly, the district court
entered judgment dismissing the claims against Officer
Mitchell.
III.
Valderas now appeals the district court’s grant of
summary judgment on the issue of qualified immunity.

App. 6
Valderas argues that the use of deadly force is confined
to the moment of the threat, which he contends ceased
when Valderas threw the gun in the car. Valderas
points to the allegedly “inconsistent” descriptions of the
location of Valderas’s gun in Officer Mitchell’s sworn
statement on January 29, 2017 and in his
December 27, 2017 affidavit as evidence that Officer
Mitchell knew that Valderas was no longer armed and
that the threat had ceased. Valderas also emphasizes
that Sgt. Billingsley confronted the same facts as
Officer Mitchell but did not fire his weapon; and he
argues that this restrained conduct establishes that
Officer Mitchell acted unreasonably. Additionally, he
says that all three bullets struck him in the back,
supporting his contention that he was fleeing when the
shots were fired. Lastly, Valderas challenges the
district court’s decision to strike certain evidence he
submitted in opposition to Officer Mitchell’s motion for
summary judgment.
IV.
We first address the standard of review. We review
a grant of summary judgment de novo, applying the
same standard as the district court. Tiblier v. Dlabal,
743 F.3d 1004, 1007 (5th Cir. 2014) (quoting Coliseum
Square Ass’n v. Jackson, 465 F.3d 215, 244 (5th Cir.
2006)). “Summary judgment is proper ‘if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.’” Rogers v. Bromac Title Servs., 755
F.3d 347, 350 (5th Cir. 2014) (quoting Fed. R. Civ.
P. 56(a)). There exists a genuine dispute of material
fact “if the evidence is such that a reasonable jury could

App. 7
return a verdict for the nonmoving party.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). “We
construe all facts and inferences in the light most
favorable to the nonmoving party.” Murray v. Earle,
405 F.3d 278, 284 (5th Cir. 2005) (citing Hart v.
O’Brien, 127 F.3d 424, 435 (5th Cir. 1997)). But
“[s]ummary judgment may not be thwarted by
conclusional allegations, unsupported assertions, or
presentation of only a scintilla of evidence.” McFaul v.
Valenzuela, 684 F.3d 564, 571 (5th Cir. 2012) (citing
Hathaway v. Bazany, 507 F.3d 312, 319 (5th Cir.
2007)).
“Further, although courts view evidence in the light
most favorable to the nonmoving party, they give
greater weight, even at the summary judgment stage,
to the facts evident from video recordings taken at the
scene.” Griggs v. Brewer, 841 F.3d 308, 312 (5th Cir.
2016) (citing Carnaby v. City of Houston, 636 F.3d 183,
187 (5th Cir. 2011)). “When opposing parties tell two
different stories, one of which is blatantly contradicted
by the record, so that no reasonable jury could believe
it, a court should not adopt that version of the facts for
purposes of ruling on a motion for summary judgment.”
Scott v. Harris, 550 U.S. 372, 380 (2007).
A good-faith qualified immunity defense alters the
usual summary judgment burden of proof. Although we
view the evidence in the light most favorable to the
nonmoving party, the plaintiff bears the burden of
demonstrating that a defendant is not entitled to
qualified immunity. Trent v. Wade, 776 F.3d 368, 376
(5th Cir. 2015) (citing Kovacic v. Villarreal, 628 F.3d
209, 211 (5th Cir. 2010)). “To negate a defense of

App. 8
qualified immunity and avoid summary judgment, the
plaintiff need not present ‘absolute proof,’ but must
offer more than ‘mere allegations.’” Ontiveros v. City of
Rosenberg, 564 F.3d 379, 382 (5th Cir. 2009) (quoting
Reese v. Anderson, 926 F.2d 494, 499 (5th Cir. 1991)).
Discretionary matters, including the district court’s
application of local rules in disposing of motions, are
reviewed under an abuse of discretion standard. Victor
F. v. Pasadena Indep. Sch. Dist., 793 F.2d 633, 635 (5th
Cir. 1986).
V.
We now turn to address the substance of Valderas’s
claim. When evaluating a claim of qualified immunity
“we engage in a two-part inquiry asking: first, whether
taken in the light most favorable to the party asserting
the injury, . . . the facts alleged show the officer’s
conduct violated a constitutional right; and second,
whether the right was clearly established.” Trammell
v. Fruge, 868 F.3d 332, 339 (5th Cir. 2017) (internal
quotation marks and citations omitted).7 To overcome
a claim of qualified immunity in an excessive force
case, the plaintiff “must show ‘(1) an injury, (2) which
resulted directly and only from a use of force that was
clearly excessive, and (3) the excessiveness of which
was clearly unreasonable.’” Poole v. City of Shreveport,
691 F.3d 624, 628 (5th Cir. 2012) (quoting Ontiveros,
564 F.3d at 382). Excessive force claims are “evaluated
7

We may exercise our discretion in deciding which prong to
address first. See, e.g., Cantrell v. City of Murphy, 666 F.3d 911,
919 (5th Cir. 2012) (citing Pearson v. Callahan, 555 U.S. 223, 236
(2009)).

App. 9
for objective reasonableness based on the information
the officers had when the conduct occurred.” Saucier v.
Katz, 533 U.S. 194, 207 (2001). “[A]n exercise of force
that is reasonable at one moment can become
unreasonable in the next if the justification for the use
of force has ceased.” Lytle v. Bexar Cnty., 560 F.3d 404,
413 (5th Cir. 2009). Recognizing that “police officers are
often forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary
in a particular situation,” Graham v. Connor, 490 U.S.
386, 397 (1989), the Supreme Court has warned
against “second-guessing a police officer’s assessment,
made on the scene, of the danger presented by a
particular situation,” Ryburn v. Huff, 565 U.S. 469, 477
(2012). Accordingly, reasonableness “must be judged
from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight.”
Graham, 490 U.S. at 396.
“The use of deadly force violates the Fourth
Amendment unless the officer has probable cause to
believe that the suspect poses a threat of serious
physical harm, either to the officer or to others.”
Romero v. City of Grapevine, 888 F.3d 170, 176 (5th
Cir. 2018) (quoting Tennessee v. Garner, 471 U.S. 1, 11
(1985)) (internal quotation marks omitted). Stated
differently, “[a]n officer’s use of deadly force is not
excessive, and thus no constitutional violation occurs,
when the officer reasonably believes that the suspect
poses a threat of serious harm.” Manis v. Lawson, 585
F.3d 839, 843 (5th Cir. 2009) (citing Ontiveros, 564 F.3d
at 382).

App. 10
Applying the law to the facts of this case, we first
note that Valderas admits to pulling a gun from his
trousers. He argues, however, that the exercise of
deadly force was no longer reasonable once he threw
the gun into the vehicle and “turned to flee.” Contrary
to Valderas’s assertions, the video footage does not
show that he put his hands up, nor does it show that he
was fleeing, when the shots were fired. See Scott, 550
U.S. at 380 (“When opposing parties tell two different
stories, one of which is blatantly contradicted by the
record . . . a court should not adopt that version of the
facts for purposes of ruling on a motion for summary
judgment.”). Instead, Valderas only can be seen leaning
into the car—not discarding the gun.8
Given these facts, there is no genuine dispute but
that Officer Mitchell’s decision to use deadly force was
reasonable under these circumstances. Our circuit has
repeatedly held that an officer’s use of deadly force is
reasonable when an officer reasonably believes that a
suspect was attempting to use or reach for a weapon.
8

Valderas argues that Officer Mitchell’s initial statement that
Officer Mitchell saw Valderas’s gun on the ground after Officer
Mitchell approached the car creates a genuine issue of fact as to
whether Officer Mitchell saw or should have seen Valderas discard
the gun. We do not see any merit in this argument. First, it is not
clear that Officer Mitchell’s initial statement was inaccurate, as
Investigator Merritt testified that, after the incident, he took the
gun from the car and placed it on the ground. Second, the
statements are not inherently inconsistent, as Officer Mitchell’s
second statement simply does not mention the location of the gun
after the shooting. Third, to the extent that there is any
inconsistency in Officer Mitchell’s testimony, it has no bearing on
the question of whether Officer Mitchell saw or should have seen
Valderas discard the gun.

App. 11
See, e.g., Manis, 585 F.3d at 844–45 (collecting cases
and finding that the officer’s use of deadly force was
not excessive when undisputed evidence showed that
suspect “in defiance of the officers’ contrary orders,
reached under the seat of his vehicle and appeared to
retrieve an object that [the officer] reasonably believed
to be a weapon”). It is immaterial whether a plaintiff
was actually armed. See Romero, 888 F.3d at 178.
Here, it is undisputed that Officer Mitchell saw
Valderas intentionally brandish a firearm at the
approaching officers. Although Valderas contends that
he discarded the gun before he was shot, the events
transpired in a matter of seconds, leaving Officer
Mitchell with little time to realize that Valderas no
longer possessed a gun before making the decision to
open fire. Considering the totality of the facts and
circumstances, a reasonable officer in Officer Mitchell’s
position would have reasonably perceived Valderas’s
actions to pose an imminent threat of serious harm at
the time the shots were fired. See Salazar-Limon v.
City of Houston, 826 F.3d 272, 279 (5th Cir. 2016). It
follows that it was not unreasonable for Officer
Mitchell to use deadly force to protect himself and
others. Officer Mitchell was not required to wait to
confirm that Valderas intended to use the gun before
shooting. See Ramirez v. Knoulton, 542 F.3d 124, 130
(5th Cir. 2008) (“The Fourth Amendment does not
require police officers to wait until a suspect shoots to
confirm that a serious threat of harm exists.” (quoting
Elliott v. Leavitt, 99 F.3d 640, 643 (4th Cir. 1996))).

App. 12
Consequently, we find that Officer Mitchell did not
violate Valderas’s Fourth Amendment rights.9
VI.
Valderas also argues that the district court abused
its discretion when it granted Officer Mitchell’s motion
to strike certain exhibits and statements offered by
Valderas in summary judgment proceedings because
Officer Mitchell’s counsel allegedly failed to comply
with Northern District of Texas Local Rule 7.1.10
The local rule requires that a party, when filing a
motion, certify that the parties conferred on the
motion, explain when they conferred, which attorneys
conferred, and why they could not reach an
agreement.11 Before filing the motion to strike at issue
9

We are also unpersuaded by Valderas’s argument that the fact
that Sgt. Billingsley did not use deadly force establishes that
Officer Mitchell’s decision to use such force was unreasonable. Sgt.
Billingsley was driving the vehicle, and he testified that Valderas
was already collapsing by the time that he was able to exit. Officer
Mitchell’s decision to use deadly force does not become
unreasonable simply because Sgt. Billingsley did not also use
deadly force, especially given the differing positions of the two
officers. Furthermore, Sgt. Billingsley testified that he too feared
for his life and was expecting a gun fight.
10

Valderas did not present arguments pertaining to the
admissibility of the excluded evidence to the district court, nor
does he make such arguments on appeal.
11

The relevant section of Northern District of Texas Local Rule 7.1
reads as follows:
a. Conference - Before filing a motion, an attorney for the
moving party must confer with an attorney for each party

App. 13
here, Officer Mitchell’s counsel emailed Valderas’s
counsel, explained the motion, and asked Valderas’s
counsel if Valderas opposed the motion. Valderas’s
counsel expressed confusion about certain aspects of
the motion, insisted that a telephone conference was
required under the local rules, and stated that he could
not “advise [his] client and gain approval to oppose or
not oppose your motion” without such a telephone
conference. Officer Mitchell’s counsel replied with
additional details about the motion and explained that
she did not believe that a telephone conference was
necessary. Valderas’s counsel responded by again
insisting that a telephone conference was “more
appropriate.”

affected by the requested relief to determine whether the
motion is opposed. Conferences are not required for
motions to dismiss, motions for judgment on the pleadings,
motions for summary judgment, motions for new trial, or
when a conference is not possible.
b. Certificate of Conference.
1. Each motion for which a conference is required must
include a certificate of conference indicating that the
motion is unopposed or opposed.
2. If a motion is opposed, the certificate must state
that a conference was held, indicate the date of
conference and the identities of the attorneys
conferring, and explain why agreement could not be
reached.
3. If a conference was not held, the certificate must
explain why it was not possible to confer, in which
event the motion will be presumed to be opposed.

App. 14
Officer Mitchell’s counsel did not respond. Instead,
Officer Mitchell filed the motion with the district court.
The motion contained a certificate noting the email
exchange and explaining that Officer Mitchell was
unsure if Valderas opposed the motion. Valderas
subsequently opposed the motion solely by arguing that
it violated the local rule. The district court granted the
motion after summarily noting that it was
“meritorious.”
Valderas cites to only one decision explicating the
meaning of the local rule in question and implies that
the decision establishes that a telephone conversation
is necessary to satisfy the conference requirement. The
decision explicitly notes, however, that the conference
requirement can be met through a written conferral.
See Dondi Props. Corp. v. Commerce Sav. & Loan
Ass’n, 121 F.R.D. 284, 290 (N.D. Tex. 1988) (en banc)
(per curiam). Valderas has provided no authority to
suggest that Officer Mitchell’s counsel did anything
improper by declining to confer over the telephone. To
the point, we see no basis for finding that the district
court abused its discretion by accepting Officer
Mitchell’s motion to strike.12
VII.
Accordingly, we hold that Officer Mitchell did not
violate Valderas’s Fourth Amendment rights when he
used deadly force against Valderas. We further hold
that the district court did not abuse its discretion by
12

Even if we considered the evidence that the district court
excluded, however, our qualified immunity determination would
remain the same.

App. 15
granting Officer Mitchell’s motion to strike. The
judgment of the district court is thus
AFFIRMED.

App. 16

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
LUBBOCK DIVISION
Civil Action No. 5:17-CV-245-C
[Filed July 2, 2018]
________________________________________________
PAUL VALDERAS,
)
Plaintiff,
)
)
v.
)
)
THE CITY OF LUBBOCK, a political subdivision, )
and OFFICER BILLY MITCHELL, individually
)
and officially, of the Lubbock Police Department, )
Defendants.
)
_______________________________________________ )
ORDER
On this date, the Court considered:
(1)

Defendant Officer Billy Mitchell’s, In His
Individual Capacity, Motion for Summary
Judgment Based on the Defense of Qualified
Immunity, filed January 1, 2018;

(2)

Plaintiff’s Response in Opposition, filed
January 22, 2018;

(3)

Defendant Officer Billy Mitchell’s Motion for
Leave to File Reply Brief, Objections and

App. 17
Motion to Strike and Exclude Inadmissible
Portions of Plaintiff’s Summary Judgment
Evidence and Unsupported Assertions, filed
February 5, 2018; 1 and
(4)

Plaintiff’s Response in Opposition to
Defendant’s Motion for Leave to File Reply
Brief, Objections and Motion to Strike and
Exclude Inadmissible Portions of Plaintiff’s
Summary Judgment Evidence and
Unsupported Assertions, filed February 6,
2018.
I.
BACKGROUND

Plaintiff brings allegations of excessive force against
the Defendants, claiming that unnecessary and
unreasonable force was used when arresting him.
Plaintiff brings claims for alleged violations of his civil
rights guaranteed by the Fourth Amendment to the
United States Constitution when he was shot by
Defendant Mitchell while being arrested on an
outstanding warrant. Specific to the pending Motion,
which is the subject of this Order, are Plaintiff’s claims
brought against Defendant Officer Billy Mitchell in his
individual capacity pursuant to 42 U.S.C. § 1983 for
the alleged use of excessive force.
The facts are not generally in dispute up to the
point of the shooting. Even at the point of shooting,

1

The Court GRANTS the Motion for Leave to File Reply and the
attached proposed Reply is deemed filed.

App. 18
Plaintiff freely admits that he pulled a gun from his
waistband when the three officers pulled up in their
vehicle to arrest him on an outstanding warrant. He
further admits that he held the gun in his hand. What
Plaintiff does dispute is whether he was a threat to the
officers and/or public at the time he was shot and
whether he still had the gun in his hand at that point.
Plaintiff contends that he had already dropped/thrown
the weapon and was attempting to turn and run away
from the officers when he was shot.2 Plaintiff argues
that justification for the use of deadly force no longer
existed when Officer Mitchell pulled the trigger and
shot him because he had already dropped/thrown the
gun into the passenger side window of the vehicle that
he was standing next to when the officers arrived.
The officers tell a different story. Each states in
their respective statements and/or affidavits, along
with deposition testimony, that Plaintiff was very
much a threat and each of them feared for their lives at
the time they noted he possessed a gun after he had
pulled it from his waistband. The officers state that the
events were in rapid motion and once the gun was
observed, each took action to guard their safety and the
safety of the vehicle occupants in the vehicle next to
Plaintiff. Specifically, Defendant Mitchell contends that
his actions were objectively reasonable under the
circumstances confronting him at the time of the
shooting. Mitchell further states that he never saw

2

Plaintiff, at times in his deposition testimony, alleges that he
“dropped” the gun; at other times he states that he had “thrown”
the gun into the passenger window of the vehicle he was standing
next to at the time of the shooting.

App. 19
Plaintiff drop/throw the weapon and believed Plaintiff
was indeed a serious deadly threat at the time he fired
upon him.
Plaintiff brings no claims for deprivation of medical
care and the summary judgment evidence indicates
that Plaintiff was provided medical attention at the
scene and then taken for medical care.
II.
STANDARD
Summary judgment is appropriate only if “the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,”
when viewed in the light most favorable to the nonmoving party, “show that there is no genuine issue as
to any material fact and that the moving party is
entitled to a judgment as a matter of law.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 247 (1986) (internal
quotations omitted). A dispute about a material fact is
“genuine” if the evidence is such that a reasonable jury
could return a verdict for the non-moving party. Id. at
248. An actual controversy of fact exists only where
both parties have submitted evidence of contradictory
facts. Olabisiomotosho v. City of Houston, 185 F.3d 521,
525 (5th Cir. 1999). The contradictory facts must be
relevant, because disputed fact issues which are
irrelevant and unnecessary will not be considered by
the court when ruling on a summary judgment.
Anderson, 477 U.S. at 248. In making its
determination, the court must draw all justifiable
inferences in favor of the non-moving party. Id. at 255.
Once the moving party has initially shown “that there

App. 20
is an absence of evidence to support the nonmoving
party’s case,” the non-movant must come forward, after
adequate time for discovery, with significant probative
evidence showing a triable issue of fact. Fed. R. Civ. P.
56(e); Celotex Corp. v. Catrett, 477 U.S. 317, 325 (1986);
State Farm Life Ins. Co. v. Gutterman, 896 F.2d 116,
118 (5th Cir. 1990). Conclusory allegations and denials,
speculation, improbable inferences, unsubstantiated
assertions, and legalistic argumentation are not
adequate substitutes for specific facts showing that
there is a genuine issue for trial. Douglass v. United
Servs. Auto. Ass’n, 79 F.3d 1415, 1428 (5th Cir. 1996)
(en banc); SEC v. Recile, 10 F.3d 1093, 1097 (5th Cir.
1993).
To defeat a properly supported motion for summary
judgment, the non-movant must present more than a
mere scintilla of evidence. See Anderson, 477 U.S. at
251. Rather, the non-movant must present sufficient
evidence upon which a jury could reasonably find in the
non-movant’s favor. Id. The pleadings are not summary
judgment evidence. Little v. Liquid Air Corp., 37 F.3d
1069, 1075 (5th Cir. 1994). The nonmoving party must
“go beyond the pleadings and by [his] own affidavits, or
by the depositions, answers to interrogatories, and
admissions on file, designate specific facts showing that
there is a genuine issue for trial.” Giles v. General Elec.
Co., 245 F.3d 474, 493 (5th Cir. 2001) (quoting Celotex,
477 U.S. at 324). Absent a showing that there is a
genuine issue for trial, a properly supported motion for
summary judgment should be granted. See Eversley v.
MBank Dallas, 843 F.2d 172, 173-74 (5th Cir. 1988);
Resolution Trust Corp. v. Starkey, 41 F.3d 1018, 102223 (5th Cir. 1995).

App. 21
III.
DISCUSSION
Qualified Immunity
The doctrine of qualified immunity serves to shield
a government official from civil liability for damages
based upon the performance of discretionary functions
if the official’s acts were objectively reasonable in light
of then clearly established law. Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982); Anderson v. Creighton, 483
U.S. 635, 638 (1987). Qualified immunity should be the
norm and, as the Supreme Court has stated, protects
“all but the plainly incompetent or those who
knowingly violate the law.” Malley v. Briggs, 475 U.S.
335, 344-45 (1986).
To support a claim of qualified immunity, a
defendant official must plead qualified immunity and
demonstrate that he is a governmental official whose
position involves the exercise of discretion. Thompson
v. Upshur County, Tex., 245 F.3d 447, 456-457 (5th Cir.
2001) (quoting Salas v. Carpenter, 980 F.2d 299, 306
(5th Cir. 1992)). The burden then shifts to the plaintiff
to rebut the defense by establishing that the official’s
allegedly wrongful conduct violated clearly established
law. Id. Thus, the defendant is not required to
demonstrate that he did not violate the clearly
established rights of the plaintiff. Id.
Once properly pleaded, the court must make a
threshold determination whether the plaintiff has
alleged the deprivation of a constitutional right which
was clearly established at the time of the alleged
violation. Kipps v. Caillier, 197 F.3d 765, 768 (1999)

App. 22
(citing Kerr v. Lyford, 171 F.3d 330, 339 (5th
Cir.1999)); see also Mitchell v. Forsythe, 472 U.S. 511,
526 (1985). Following this threshold inquiry, the Court
must then determine whether the defendant official’s
conduct was objectively reasonable in light of the
clearly established constitutional right allegedly
violated. See Hare v. City of Corinth, Miss., 135 F.3d
320, 325 (5th Cir. 1998) (citing Colston v. Barnhart,
130 F.3d 96, 99 (5th Cir. 1997)).
A defendant’s acts are held to be objectively
reasonable unless all reasonable officials, acting under
the circumstances presented to the defendant, would
have then known that the defendant’s conduct violated
the Constitution or federal statute. Anderson v.
Creighton, 483 U.S. at 640. The circumstances
presented to the defendant include the facts known to
the defendant at the time of the action. Id. at 641.
However, the subjective state of the defendant’s mind
has no bearing on whether the defendant is entitled to
qualified immunity. Anderson v. Creighton, 483 U.S. at
641; Thompson, 245 F.3d at 456.
Analysis
A. Motion to Strike
As stated above, Defendant Mitchell filed a Motion
for Leave to File Reply and Motion to Strike. The Court
has ruled, above, that leave is granted and the Reply is
deemed filed and fully considered. As to the Motion to
Strike, the Court notes that Plaintiff’s response thereto
does not actually contest the grounds for which
Defendant Mitchell objects to certain exhibits and
assertions relied upon by Plaintiff in Plaintiff’s

App. 23
Response to Defendant Mitchell’s Motion for Summary
Judgment on the Issue of Qualified Immunity. Many of
the exhibits are objected to as not properly
authenticated or consisting of hearsay, and the
assertions by Plaintiff are objected to as improper
summary judgment evidence in that they are nothing
more than speculative and conclusory.3 Rather than
contest the individual points raised in Defendant’s
Motion to Strike, Plaintiff simply asks that the Motion
to Strike be denied for failure to confer in good faith
prior to filing.4 The Court finds that the Motion to
Strike is meritorious as to each objection raised therein
and it is therefore GRANTED in it entirety. As such,
the various exhibits and unsupported assertions to
which Defendant has objected and requested be
stricken are hereby STRICKEN for the reasons argued
by Defendant Mitchell in his objections and in the
Motion to Strike.

3

Defendant Mitchell also objects to the reliance of Plaintiff’s
reliance on the report of an expert witness because the report was
not produced in response to discovery requests and the opinions
are inadmissable legal conclusions.
4

The Court notes that the Certificate of Conference included with
said motion indicated that counsel for Plaintiff responded to
Defendant regarding the motion but failed to indicate whether he
was opposed at that time without further review and information.
Plaintiff’s counsel was provided a list of the exhibits Defendant
intended to challenge as inadmissible and informed that
Defendant also intended to seek to exclude Plaintiff’s conclusory
and speculative assertions in his affidavit. Thus, Defendant filed
the motion and corresponding certificate under the assumption
that it was opposed. See L.R. 7.1(b).

App. 24
B. Motion for Summary Judgment on the Issue of
Qualified Immunity
Defendant Mitchell seeks summary judgment on
Plaintiff’s 42 U.S.C. § 1983 claim of excessive force in
his individual capacity. Defendant contends that
summary judgment is appropriate because no genuine
issue of material fact precludes him from being entitled
to the affirmative defense of qualified immunity.
Additionally, he contends that his actions were
objectively reasonable under the circumstances
confronting him at the time.
As to the specific alleged constitutional violation at
issue in this case, the familiar “reasonableness”
standard governs claims for excessive use of force
during an arrest. See Graham v. Connor, 490 U.S. 386,
395 (1989). The elements of an excessive force claim
under the reasonableness standard are (1) an injury
(2) which resulted directly and only from the use of
force that was clearly excessive to the need and (3) the
excessiveness of which was objectively unreasonable.
See Hudson v. McMillian, 503 U.S. 1, 9 (1992). The test
of reasonableness under the Fourth Amendment
requires careful attention to the facts and
circumstances of each particular case, including the
severity of the crime at issue, whether the suspect
poses an immediate threat to the safety of the officers
or others, and whether he is actively resisting arrest or
attempting to evade arrest by flight. Graham, 490 U.S.
at 396. The reasonableness of the use of force is judged
from the perspective of a reasonable officer at the scene
rather than with the 20/20 vision of hindsight. Id. In
other words, “ [e]xcessive force claims . . . are evaluated

App. 25
for objective reasonableness based upon the
information the officers had when the conduct
occurred.” Saucier v. Katz, 533 U.S. 194, 207 (2001 ). In
determining objective reasonableness, a court must
balance the amount of force used against the need for
that force. Ikerd v. Blair, 101 F.3d 430, 434 (5th Cir.
1996). The “calculus of reasonableness” a court uses to
make that determination “must embody allowance for
the fact that police officers are often forced to make
split-second judgments—in circumstances that are
tense, uncertain, and rapidly evolving—about the
amount of force that is necessary in a particular
situation.” Graham, 490 U.S. at 396-99. “[T]he need for
force determines how much force is constitutionally
permissible.” Bush v. Strain, 513 F.3d 492, 501 (5th
Cir. 2008). Although “[o]bjective reasonableness is a
matter of law for the courts to decide, not a matter for
the jury, . . . underlying historical facts may be in
dispute that are material to the reasonableness
determination.” Williams v. Bramer, 180 F.3d 699, 703
(5th Cir. 1999).
Plaintiff’s main contention is that Mitchell’s
statements differ as to whether he knew Plaintiff was
still armed or did not know if Plaintiff was still armed
when he shot Plaintiff. Plaintiff contends that this
issue creates a genuine issue of material fact.
Specifically, Plaintiff argues that Mitchell’s actions
were not objectively reasonable in the amount of force
he used, which resulted in Plaintiff’s partial paralysis.
Plaintiff also argues that genuine issues of material
fact exist because Mitchell’s story differs as to whether
Mitchell recalled seeing the weapon on the ground after

App. 26
the shooting or whether it was in the vehicle where
Plaintiff claims to have dropped it.
The Court will quote the relevant portions of
Defendant Mitchell’s two statements. The first is from
Officer Mitchell’s report and is dated January 29, 2017:
As we stopped, Mr. Valderas stood up, looked at
us, and raised the right side of his shirt with his
right hand. Because of the illumination from the
headlights, I could immediately see that he was
possessing a firearm. At this point he turned his
body slightly into a bladed stance. Still in the
same motion of raising his shirt, he grabbed the
firearm and removed it from his waistline. I
became immediately fearful he would use the
pistol to cause serious bodily injury or death to
myself or the other officers in the vehicle. We all
immediately began advising he had a gun.
Through my training and experience I know it is
very dangerous to be involved in a fire fight
while in a vehicle. I exited the vehicle as quickly
as possible and, being cognizant of the innocent
citizens in the car next to Mr. Valderas, I
stepped to the right side of the vehicle I was in.
I drew my department issued firearm from its
holster as I yelled “POLICE!” Mr. Valderas
continued displaying the pistol. I was very afraid
that Mr. Valderas was going to attempt to use
deadly force against myself or one of the other
Officers in an attempt to escape custody. I fired
multiple times at Mr. Valderas’ upper torso. I
observed him crouch down and yell in pain. He

App. 27
then fell to the ground. . . . I observed the pistol,
which he was holding, on the ground near him.
Def.’s App. 8, Officer Report dated Jan. 29, 2017.
The second is from Defendant Mitchell’s Affidavit
and is dated December 27, 2017—approximately 11
months after the first statement recorded in the
officer’s report:
Our vehicle stopped just in front of the
passenger car and Mr. Valderas stood up, looked
at us, and raised the right side of his shirt with
this right hand. I could immediately see that Mr.
Valderas was possessing a firearm because of
the illumination from our headlights. Mr.
Valderas turned his body slightly toward the
vehicle in a shooting stance, raised his shirt, and
grabbed and removed the firearm from his
waistline. I immediately became fearful he
would use the pistol to cause serious bodily
injury or death to myself or the other officers in
the vehicle.
Through my training and experience I know it is
very dangerous to be involved in a fire fight
while in a vehicle. I exited the vehicle as quickly
as possible, while being cognizant of the two
innocent passengers in the car next to Mr.
Valderas. I stepped to the right side of the
vehicle I was in and drew my department issued
firearm from its holster as I yelled ‘Police!.’ I did
not ever see Mr. Valderas drop the weapon.
I was afraid Mr. Valderas was going to attempt
to use deadly force against myself or one of the

App. 28
other officers in an attempt to escape custody. I
fired multiple times at Mr. Valderas’ upper
torso. I observed him crouch down and fall to the
ground.
Def. App. 3, Affidavit of Officer Billy Mitchell dated
Dec. 27, 2017.
The Court finds that the two statements do not
create a genuine issue of material fact because in both
statements Defendant Mitchell states that he saw
Plaintiff pull a gun from his waistband and believed
that Plaintiff was still armed when he shot him.
Nothing in either statement differs on Mitchell ‘s goodfaith belief that Plaintiff was still armed and that
Mitchell had not seen Plaintiff drop the weapon before
he fired. The fact that Mitchell states in the first
statement that he observed the gun on the ground after
the shooting, but does not include that language in the
second statement, is not relevant to the issue of what
happened up to the point of Mitchell pulling the trigger
and shooting Valderas.5 “An issue is material if its

5

Moreover, one of the other officers (Officer Merritt) states that he
removed the gun from inside the vehicle where Plaintiff had
thrown/dropped it and placed the gun on the ground immediately
after the shooting. Thus, it is not controverted that the gun was
indeed on the ground after the shooting and the deposition
testimony of the other officers maintains that the gun was indeed
on the ground at the time Mitchell held cover on Plaintiff and
when aid was being administered to Plaintiff. Def.’s App. 527-28
(“I saw a silver firearm sitting on the female’s lap. I obviously
picked it up, placed it away from Valderas, away from them on the
pavement.”; id. at 362 (“Q. Was that weapon that you saw on the
ground near Mr. Valderas? A. It was in close–. . . .”); id. at 530 (“A.
It’s on the pavement beside the blue car.”).

App. 29
resolution could affect the outcome of the action.” Wyatt
v. Hunt Plywood Co., 297 F.3d 405,409 (5th Cir. 2002).
Any disputed fact issues are not material if, even
according to a plaintiff’s version, the violation does not
implicate clearly established law. Goodson v. City of
Corpus Christi, 202 F.3d 730, 739 (5th Cir. 2000). A
court may grant a summary judgment motion
regardless of whether immaterial facts are in dispute.
Rally’s, Inc. v. Int’l Shortstop, Inc., 939 F.2d 1257, 1264
(5th Cir. 1991).
Plaintiff testified in his deposition, and argues in
his Response, that he threw the gun into the passenger
window of the vehicle he was standing next to and then
turned and ran away from the cops. Def.’s App. 275.
However, when questioned further as to how far he had
run away before being shot, Plaintiff clarifies that he
had really only proceeded “just enough to turn” and
that “while I was turning the first bullet grazed me in
my side and I remember after that just hitting the
floor.” (Id. at lines 14-17. Plaintiff also testified that the
officers never announced that they were police.
However, the video evidence directly refutes this
testimony by Plaintiff because the officers can easily
and distinctly be heard announcing that they were
police.6 Moreover, Plaintiff seems to center his
6

In addition, Plaintiff admits that the passenger in the vehicle he
was standing next to informed him that the officers were police.
There is no genuine or material issue of fact because Plaintiff not
only knew they were police officers at that point, but contends that
it is the reason he attempted to throw/drop the gun from his hand
into the vehicle. Finally, the video reveals officers yelling, “He’s got
a gun, police!” Def.’s App. 464 (“A. It looks like he’s facing our
vehicle. Q. Did he -- do you hear anything being said at seven

App. 30
contention of having disarmed on the fact that he knew
the officers were police and that is why he allegedly
dropped/threw the gun into the passenger side of the
vehicle that he had been standing next to when the
officers pulled up to arrest him.
Thus, Plaintiff has freely admitted to pulling the
gun, holding and displaying it in his hand, and
throwing/dropping it as he began turning to run.7 The
fact that Defendant Mitchell may have viewed the
physical act of Plaintiff moving his arm and hand
(while holding the weapon) in an effort to throw it into
the vehicle as a threatening motion can not be said to
be objectively unreasonable under the circumstances.
When Plaintiff’s counsel questioned one of the officers
that was in the vehicle with Mitchell, he specifically
asked, “And that fashion is that [Valderas] just lifted
the gun up . . . the fashion that you’re talking about?”
Def.’s App. 392. The officer responded, “The fashion is
that it came up, and I got a full view of the handgun.”

seconds? . . . A. Yeah . . . A. That “he’s got a gun, police.”). At any
rate, “regardless of what transpired up until the shooting itself,
[Plaintiff’s] movements gave the officers reason to believe, at that
moment, that there was a threat of physical harm.” Fraire v. City
of Arlington, 957 F.2d 1268, 1276 (5th Cir. 1992); Young v. City of
Killeen, 775 F.2d 1349, 1353 (5th Cir. 1985) (any contributing
negligence by an officer in creating a situation where the danger
of mistake would exist is insufficient for finding of liability under
the law).
7

Plaintiff testified in his deposition that he intentionally pulled
out the gun to let whoever was in the vehicle pulling up to him
know that he was armed because he was expecting that he was
about to “get jumped, shot or something, you know.” Def.’s App.
277-78.

App. 31
Id. Plaintiff’s own testimony indicates that all of these
actions and the first shot happened in a rapid, almost
instantaneous, succession. Def.’s App. 291 (“Q. -- and
the shots were fired at the same time? A. Yes, sir.”); id.
at 275 (“You know, I throw [sic] the gun in the car, turn
my back. . . . [w]hile I was turning, the first bullet
grazed my in the side. . . .”).8
Of importance in this case is the fact that a video,
and corresponding audio, recording was made by a
video-surveillance camera located near the scene. Such
video evidence is properly considered as part of the
record by a court in ruling on a motion for summary
judgment. Colston v. Barnhard, 130 F.3d 96, 98 (5th
Cir. 1997). Likewise, the audio, when available, is
generally clear. As the Supreme Court has aptly stated,
when a recorded videotape depicts certain evidence, it
can be relied upon by the courts in a summary
judgment setting, even if a plaintiff’s affidavit and
version differ. Scott v. Harris, 127 S. Ct. 1769, 1775
(2007). The Supreme Court states, “[w]e are happy to
allow the videotape to speak for itself.” Id. The
Supreme Court further notes that, in contrast to a
plaintiff’s version, “[t]he videotape tells quite a
different story.” Id. “When opposing parties tell two
different stories, one of which is blatantly contradicted
by the record, so that no reasonable jury could believe
it, a court should not adopt that version of the facts for

8

The deposition testimony of Officer Billingsley (testimony given
while viewing the video and being questioned by Plaintiff’s
counsel) also supports that the movements and the first shot
occurred almost at the same instant.

App. 32
purposes of ruling on a motion for summary judgment.”
Id. at 1776.
Importantly, the video evidence clearly shows that
Plaintiff had not run from the officers and was not shot
while running away, as he now attempts to argue.9
Moreover, the video does not clearly show him
disarming himself in such a manner as to objectively
remove any threat the officers might have perceived. At
any rate, the evidence does not support Plaintiff’s
version that he was clearly no longer a threat and than
any reasonable officer would have recognized such
under the circumstances as they presented at the time.
As stated above, “[f]actors to consider in
determining whether the force was ‘objectively
reasonable’ include the severity of the crime at issue,
whether the suspect poses an immediate threat to the
safety of the officers or others, and whether he is
actively resisting arrest or attempting to evade arrest
by flight.” Griggs v. Brewer, 841 F.3d 308, 312 (5th Cir.
2016). Even if the officer’s “actions may not have been
as restrained as we would like to expect from model
police conduct,” qualified immunity protects officers
from the sometimes hazy border between excessive and
acceptable force. Id. at 315 (quoting Saucier v. Katz,
533 U.S. 194, 2016 (2001)).
It is undisputed by any controverting evidence that
(1) Plaintiff had previously fled a police pursuit a few
9

When pressed in his deposition as to whether his back was
completely to Defendant Mitchell when he was shot, Plaintiff
clarified (after first attempting to state that his back was totally
facing Mitchell) that “I was in turning motion, yes.”

App. 33
days earlier, endangering himself, the officer, and the
public at large; (2) Plaintiff was known to be a member
a violent gang and had an extensive criminal history;
(3) Plaintiff was known to often be armed with a
weapon; (4) an outstanding warrant existed for
Plaintiff’s arrest; (5) a plan was formulated to attempt
to arrest Plaintiff and prevent him becoming mobile
and again endangering others in another high-speed
chase; (6) Plaintiff intentionally raised his shirt and
pulled the gun in an effort to show the persons in the
vehicle pulling up to him that he was armed; (7) the
officers all noted that Plaintiff had a gun and feared for
their safety; (8) each of the three officers began evasive
positioning to remove themselves from the interior of
the car and prevent the possibility of being shot in the
vehicle; (9) Plaintiff was informed by the passenger in
the vehicle he was standing next to that the officers
were police; (10) the video and testimony indicates that
the officers can be heard yelling “gun” and “police”
immediately prior to the shooting of Plaintiff by
Mitchell; (11) other than Plaintiff’s conclusory and
speculative statement (which is improper summary
judgment evidence) that the officers saw him disarm,
there is no evidence that any of the officers believed
Plaintiff was unarmed when Defendant Mitchell fired
his weapon; (12) Plaintiff’s own conduct of intentionally
pulling his gun caused the officers to have a clear and
present danger of severe bodily harm and/or death; and
(13) according to Plaintiff’s own deposition testimony,
Defendant Mitchell discharged his weapon at almost
the same instant Plaintiff threw the gun and was only
beginning to turn to attempt to flee.

App. 34
As the circumstances faced by an officer claiming
the affirmative defense of qualified immunity are
highly relevant, these undisputed facts and
circumstances in the moments that preceded
Defendant Mitchell’s shooting of Plaintiff must be kept
in mind when analyzing Plaintiff’s claims against
Defendant Mitchell’s assertion of qualified immunity.
The “inquiry focuses . . . on the specific circumstances
of the incident—could an officer have reasonably
interpreted the law to conclude that the perceived
threat posed by the suspect was sufficient to justify
deadly force?” Ontiveros v. City of Rosenberg, Tex., 564
F.3d 379, 383 n.1 (5th Cir. 2009). Based upon Plaintiff’s
conduct and actions, it cannot be said that all
reasonable officers under similar circumstances would
have believed that the use of deadly force was
unwarranted or that it was certain that Plaintiff no
longer not possessed the weapon at the point he was
shot. Furthermore, the United States Court of Appeals
for the Fifth Circuit has repeatedly stated that “the
focus of the inquiry is ‘the act that led [the officer] to
discharge his weapon.”’ Reyes v. Bridgwater, 362 F.
App’x. 403, 406 (5th Cir. Jan. 22, 2010) (quoting Manis
v. Lawson, 585 F.3d 839, 845 (5th Cir. 2009)). Here,
Plaintiff has testified that he pulled his gun when the
officers pulled up, causing them to have a reasonable
fear for their safety and lives. Even in cases in which it
was later discovered that a weapon did not exist,
qualified immunity still applies. See Reese v. Anderson,
926 F.2d 494 (5th Cir. 1991) (no excessive force in
instance where suspect repeatedly refused to keep
hands raised and appeared to be reaching for an
object). Here, Plaintiff clearly pulled a gun when the
police arrived.

App. 35
Use of deadly force is presumptively reasonable
when an officer has reason to believe the suspect poses
a threat of serious harm to the officer or to others.
Mace v. City of Palestine, 333 F.3d 621, 623 (5th Cir.
2003). As such, it cannot be said to have been clearly
unreasonable for Defendant Mitchell to make a splitsecond decision to shoot or that shooting was clearly
excessive under the circumstances. See, e.g., Ramirez
v. Knoulton, 542 F.3d 124, 128, 131 (5th Cir. 2008)
(involving a suspect who repeatedly refused officer’s
commands within several yards from the officer and
moved his hands in what the Fifth Circuit believed
“could reasonably be interpreted as a threatening
gesture”). Plaintiff intentionally pulled his gun and no
controverting evidence exists (beyond Plaintiff’s
speculative, conclusory, self-serving statement to the
contrary) indicating that Defendant Mitchell was
aware Plaintiff was attempting to disarm, or had in
fact disarmed, at the instant Mitchell shot. Plaintiff
has failed to carry his burden to overcome Defendant
Mitchell’s affirmative defense of qualified immunity.
Qualified immunity recognizes that at times officers
must “make split-second judgments” while reacting to
a “tense, uncertain, and rapidly evolving” scene.
Carroll v. Ellington, 800 F.3d 154, 173-74 (5th Cir.
2015). That is exactly what Defendant Mitchell did in
this instance.
IV.
CONCLUSION
Based on the above discussion and the arguments
contained in Defendant Mitchell’s Motion and Reply,
Defendant Officer Billy Mitchell’s Motion for Summary

App. 36
Judgment on the issue of qualified immunity is
GRANTED.
SO ORDERED this 2nd day of July, 2018.
/s/ Sam R. Cummings
SAM R. CUMMINGS
SENIOR UNITED STATES DISTRICT JUDGE

App. 37

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
LUBBOCK DIVISION
Case No.
[Filed October 25, 2017]
________________________________________________
PAUL VALDERAS,
)
Plaintiff,
)
)
v.
)
)
THE CITY OF LUBBOCK, a political subdivision, )
and OFFICER BILLY MITCHELL, individually
)
and officially, of the Lubbock Police Department, )
Defendants.
)
_______________________________________________ )
JURY DEMAND
Attorneys Appearing for Plaintiff
Daniel A. Dailey (Admitted)
IL-SBN: 6312616
David L. McBride. (pending pro hac vice)
LA-SBN:35901
Tatiauna J. Holland (pending pro hac vice)
TX-SBN: 24090519

App. 38
Kingdom Litigators, Inc.
A Public Interest Law Firm
100 Crescent Court Ste. 700
Dallas, TX 75201
Office: (214) 422-9350
Fax: (469)736-0022
www.KingdomLitigators.com
NOW COMES, Plaintiff, PAUL VALDERAS,
(“Plaintiff”) by and through undersigned counsel,
against the CITY OF LUBBOCK, a political
subdivision, and DEFENDANT BILLY
MITCHELL, individually and his official
capacity, (Defendant Mitchell) (collectively
“Defendants”) and each of them in the
alternative, states the following:
INTRODUCTION
The national hysteria surrounding police-involved
shootings has placed an enormous pressure on honest
cops to support dishonest cops and endure nationwide
criticisms for one dishonest officer’s conduct. Despite
this reality, in the Lubbock Police Department, a few
honest men and women refused to support Officer Billy
Mitchell’s (Mitchell) justification statement for
shooting Paul Valderas (Mr. Valderas) in the back
three times. Those honest cops must be acknowledged
and protected against fraternal police and public
pressures which often cause officers to corroborate
police reports for the interests of their departments.
On January 26, 2017, Officer Mitchell shot Mr.
Valderas three times in the back although Mr.
Valderas was unarmed and not a threat. After Mr.

App. 39
Valderas fell to the ground, Mitchell stated, I [Mitchell]
approached… “I observed the pistol, he [Valderas]
was holding, on the ground near him.”
Surveillance video from a nearby home later
emerged. The audio and video showed Mitchell did not
properly identify himself as a police officer. When Mr.
Valderas realized Mitchell was a cop, Mr. Valderas very
clearly disarmed himself by placing the gun in a nearby
vehicle—inaccessible to his person. Yet, Mitchell still
shot and continued shooting without giving a single
command. Mitchell even shot as Mr. Valderas was
falling, helplessly, to the ground. Mr. Valderas is now
permanently paralyzed from the chest down.
It is apparent Mitchell knew the shooting was
unjustified, so he lied. But more importantly, Mitchell’s
fellow officers did not support his lie. By holding
Mitchell accountable, we protect, validate, and
encourage honest police, like Mitchell’s fellow officers,
to continue resisting the fraternal pressure to place
departmental interests over truth.
JURISDICTION
1.
Federal jurisdiction is proper pursuant to 28
U.S.C. §1331 and 42 U.S.C. §1983.
2.
Venue in the Northern District of
Texas-Lubbock Division is proper pursuant to 28
U.S.C. §1391 as the police-involved shooting occurred
within this district and all Defendants reside within
this district.

App. 40
PARTIES
3.
The Plaintiff, PAUL VALDERAS, is a U.S.
citizen, a resident of Lubbock, Texas, and father of five
minor children.
4.
The Defendant, CITY OF LUBBOCK, is a
political subdivision of the State of Texas and operates
and controls the Lubbock Police Department.
5.
The Defendant, Billy Mitchell, is a sworn
police officer in the Lubbock Police Department. Upon
information and belief, Defendant Mitchell resides
within this federal district.
FACTS
6.
The Defendant, CITY OF LUBBOCK,
employed Defendant Officer Billy Mitchell (hereinafter
“Defendant Mitchell”) as a sworn police officer in the
Lubbock Police Department (LPD), and assigned him
to different divisions, which included narcotics and
gang unit.
7.
An officer in the LPD narcotics unit contacted
a Confidential Informant (CI) to coerce the Plaintiff to
take possession of a firearm on January 23, 2017.
8.
On January 26, 2017, the Plaintiff stood
outside of the CI’s vehicle when an ordinary Chevy
Tahoe approached. Defendant Mitchell exited the
Chevy Tahoe but did not identify himself as police. He
immediately drew his weapon and shot at the Plaintiff
five times only yelling ‘police’ over his fire.
9.
The entire interaction between the Plaintiff
and Defendant Mitchell, including the shooting, was

App. 41
captured on surveillance video. The Plaintiff by
reference incorporates the video as Exhibit A.
10.
According to the video, on January 26, 2017,
a random Chevy Tahoe approached the Plaintiff as he
stood on the street talking to the CI, who sat in the
passenger’s seat. The Chevy Tahoe stopped abruptly
and appeared as an ambush. This, understandably,
caused the driver and the Plaintiff to fear for their
lives.
11.
The CI told the Plaintiff that the individuals
in the random Chevy Tahoe were police, although
Defendant Mitchell did not make any verbal commands
or identify himself. The Plaintiff immediately discarded
the gun through the passenger window and away from
Plaintiff’s person to surrender. Suddenly and without
warning, but after the weapon was clearly discarded,
Defendant Mitchell shot at the Plaintiff.
12.
Still, Defendant Mitchell never issued any
verbal commands. Unarmed and in fear for his life, the
Plaintiff sought safety because Defendant Mitchell
continued to shoot.
13.
Unarmed, the Plaintiff reactively ducked to
avoid Defendant Mitchell’s bullets. Defendant Mitchell
did not stop shooting. The Plaintiff ran for safety away
from Defendant Mitchell with both hands partially
raised exposing the Plaintiff’s back, but Defendant
Mitchell did not stop shooting.
14.
Defendant Mitchell discharged his weapon a
total of five times. Three of the five bullets struck the
Plaintiff in the back which caused instant paralysis.
The fourth bullet struck Plaintiff, while his hands

App. 42
were raised, directly in the middle of Plaintiff’s
back which caused him to fall. The fifth bullet
struck the Plaintiff as his knees were on the
ground and his upper body ‘collapsing’.
15.
Defendant Mitchell submitted his written
police report on February 1, 2017— approximately four
days after the incident.
16.
Unaware of the surveillance video, Defendant
Mitchell stated that after he fired, “he and [another
officer] approached the passenger side of the vehicle [as
another officer] covered the citizens in the car, and I
observed the pistol, which [Plaintiff] was holding, on
the ground near him.” The audio of the video directly
contradicted this statement.
17.
Unaware of the video surveillance, Defendant
Mitchell stated, “he exited his vehicle…drew his weapon
as he yelled ‘Police,’ but the Plaintiff continued to
display a weapon.”
18.
The visual images of the surveillance video
contradicted Defendant Mitchell’s statement.
Defendant Mitchell never identified himself as a police
officer, until he fired his weapon. According to the
surveillance video, when Defendant Mitchell first shot,
Plaintiff had already discarded his weapon from his
person, did not display a weapon, and his hands were
visible.
19.
Neither Defendant Mitchell or his colleagues
alleged that the Plaintiff pointed a weapon or any
object at any officer or individual. Likewise, the
surveillance video confirmed that the Plaintiff did not
point a weapon at any officer or individual.

App. 43
20.
Three bullets struck the Plaintiff in the back.
As a result, the Plaintiff is now paralyzed from the
chest down for the remainder of his natural life.
42 U.S.C. § 1983 - EXCESSIVE FORCE in
Violation of the Fourth and Fourteenth
Amendments to the United States
Constitution - (v. Defendant Mitchell,
officially and individually)
21.
At all times alleged herein, Defendant
Mitchell was a sworn police officer employed with the
Defendant City of Lubbock and acting under color of
law when Defendant Mitchell shot the unarmed
Plaintiff.
22.
The Defendant City of Lubbock remains
responsible because it authorized, approved and
controlled the conduct of Defendant Mitchell.
23.
The Defendant City of Lubbock, by and
through the LPD, attempted to create a dangerous
situation when LPD officer(s) entrapped the Plaintiff
into taking possession of a stolen weapon, upon
information and belief.
24.
At all relevant times alleged herein, no
citizen, officer, or bystander was in imminent fear for
their life or in fear of receiving serious bodily injury
caused by the Plaintiff.
25.
At all relevant times, the Plaintiff possessed
the right from excessive force and all rights granted
under the U.S. Constitution, including the right not to
be entrapped to commit a crime.

App. 44
26.
Defendant Mitchell used objectively
unreasonable force when the Plaintiff did not pose an
imminent threat of death or serious bodily injury to
Defendant Mitchell, or any other person during the
relevant time alleged herein.
27.
Neither of the two officers present with
Defendant Mitchell fired because it was not reasonable
or justified under the circumstances, and no reasonable
police officer would have discharged their firearm
especially when the Plaintiff’s hands were visible, and
he was unarmed.
28.
As alleged herein, Defendant Mitchell did not
need to fire the first two, off-target, bullets at the
Plaintiff when Plaintiff did not point a weapon at any
police officer or individual.
29.
As alleged herein, Defendant Mitchell did not
need to fire the third bullet while Plaintiff was turned
away from Defendant Mitchell, exposing the unarmed
Plaintiff’s back to Defendant Mitchell and Defendant
Mitchell’s fellow officers.
30.
As alleged herein, Defendant Mitchell did not
need to fire the fourth bullet striking the unarmed
Plaintiff in the middle of his back as the Plaintiff was
completely turned away from the Defendant and
Defendant’s fellow two officers.
31.
As alleged herein, Defendant Mitchell did not
need to fire the fifth bullet as the unarmed Plaintiff
was falling to the ground.
32.
Every shot fired by Defendant Mitchell was
excessive and an unreasonable use of force according to

App. 45
the need of effectuating an arrest on an unarmed
citizen. There was nothing Plaintiff could do to avoid
Defendant Mitchell’s fire.
33.
The Plaintiff collapsed to the ground as a
direct cause of Defendant Mitchell’s bullet which struck
the Plaintiff in the spinal cord causing instant
paralysis.
34.
Defendant Mitchell’s fellow officers never
fired their weapons because there was no immediate
threat of death or serious bodily harm.
35.
The force used by Defendant Mitchell was
inappropriate, unwarranted and unjustified to arrest
the Plaintiff.
36.
In fact, Defendant Mitchell acted in extreme
and reckless disregard for his fellow officers, innocent
bystanders, and the civilians in the vehicle who were in
the line of off-target fire from Defendant Mitchell.
37.
Defendant Mitchell knew his conduct was
unlawful and excessive, so he made false statements in
his police report to justify his actions.
38.
The conduct of Defendant Mitchell
constituted excessive force in violation of the Fourth
Amendment to the United States Constitution, as
incorporated into the Fourteenth Amendment to the
United States Constitution.
39.
As a direct and proximate cause of
Defendants use of excessive force, in shooting Plaintiff
three times in the back, the Plaintiff suffered severe
and permanent physical and emotional injuries.

App. 46
WHEREFORE, Plaintiff prays for compensatory
damages, punitive damages, attorney’s fees, and costs
pursuant to 42 U.S.C. 1988, and all relief this court
deems reasonable and just.
Submitted: October 25, 2017
Signed:_/s/ Daniel A. Dailey
Daniel A. Dailey, Esq.
Kingdom Litigators, Inc.
A Public Interest Law Firm
100 Crescent Court Ste. 700
Dallas, TX 75201
Office: (214) 422-9350
Fax: (469)736-0022
Email: ddailey@kingdomlitigators.com
IL-SBN: 6312616
NDTX Admission: 1/23/17

App. 47

APPENDIX D

U.S. Const. amend. IV
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.
42 U.S.C.A. § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.

